State of New York
Supreme Court, Appellate Division
Thirdjuiiciai Department
Decided and Entered:

January 9, 2020

527677

In the Matter of ANDREW
HENDRICKS,
Appellant,
v
MEMORANDUM AND ORDER
ANTHONY J. ANNUCCI, as Acting
Commissioner of Corrections
and Community Supervision,
et al.,
Respondents.

Calendar Date:
Before:

December 17, 2019

Lynch, J.P., Clark, Mulvey, Devine and Reynolds
Fitzgerald, JJ.

Andrew Hendricks, Dannemora, appellant pro se.
Letitia James, Attorney General, Albany (Martin A. Hotvet
of counsel), for respondents.

Reynolds Fitzgerald, J.
Appeals (1) from a judgment of the Supreme Court
(Feldstein, J.), entered March 18, 2019 in Clinton County,
which, in a proceeding pursuant, to CPLR article 78, among other
things, granted respondents' motion to dismiss the petition, and
(2) from an order of said court, entered March 12, 2019 in
Clinton County, which dismissed the amended petition.

-2-

527677

After petitioner was removed from his job in the prison
tailor shop, he filed a grievance claiming that his removal was
for retaliatory reasons. The Inmate Grievance Resolution
Committee denied the grievance and the denial was subsequently
upheld by respondent Superintendent of Clinton Correctional
Facility. On February 6, 2018, petitioner appealed to the
Central Office Review Committee (hereinafter CORC). In April
2018, prior to receiving a determination from CORC on the
administrative appeal, petitioner commenced this CPLR article 78
proceeding challenging the denial of the grievance.
Respondents, in turn, moved to dismiss the petition on the
ground that petitioner failed to exhaust administrative
remedies. Before Supreme Court decided the motion, petitioner
sought to file an amended petition. By letter, denominated an
order, Supreme Court declined to consider the amended petition
because petitioner failed to seek leave to amend the petition.
The court then issued a judgment granting respondents' motion
and dismissed the petition. Petitioner appeals.
Petitioner contends, among other things, that Supreme
Court erroneously dismissed his petition for failure to exhaust
administrative remedies. Specifically, he asserts that he
timely appealed the grievance determination to CORC and
commenced this CPLR article 78 proceeding only after CORC failed
to issue a determination within 30 days as required by 7 NYCRR
701.5 (d) (3) (iii). That regulation provides, in relevant .
part, that "CORC shall review each appeal, render a decision on
the grievance, and transmit its decision to the facility . . .
and any direct parties within 30 calendar days from the time the
appeal was received" (7 NYCRR 701.5 [d] [3] [ii]): It is
undisputed that CORC did not render its decision within 30 days
of petitioner's February 6, 2018 appeal. However, contrary to
petitioner's claim, this Court has held that the time
limitations set forth in 7 NYCRR 701.5 (d) (3) (ii) are
directory, not mandatory (see Matter of Golston v Director of
Div, of Nutritional Servs., 168 AD3d 1299, 1300 [2019]; Matter
of Jones v Fischer, 110 AD3d 1295, 1296 [2013], appeal dismissed
23 NY3d 955 [2014]). As such, petitioner must demonstrate that
he was substantially prejudiced by CORC’s delay in issuing a
decision (see Matter of Golston v Director of Div, of
Nutritional Servs.. 168 AD3d at 1300; Matter of Jones v Fischer.

. t

-3-

527677

110 AD3d at 1296). Petitioner has not made that showing here.
Accordingly, we find.no error in Supreme Court's dismissal of
the petition as premature.
Petitioner also challenges Supreme Court's failure to
consider his amended petition and asserts that, because
respondents' motion to dismiss was still pending at that time
he was not required to obtain leave of court, We are not
persuaded. The procedure governing CPLR article 78 proceedings
is set forth in. CPLR 7804. With regard to pleadings, CPLR 7804
(d) specifically provides for service of a verified petition,
verified answer and reply to a counterclaim or to new matter in
the answer. As for other pleadings, the statute states that
”[t]he court may permit such other pleadings as are authorized
in an action upon such terms as it may specify" (CPLR 7804 [d] ;
__ CPLR 402; Matter of Nagubandi v Polentz, 131 AD3d 639, 641
see
[2015]; Matter of Gomez v Fischer, 101 AD3dll95, 1196 [2012]).
In view of this, it was incumbent upon petitioner to obtain the
court' s permission to file the amended petition and, having
failed to do so, Supreme Court was not bound to consider it.
We have considered petitioner's remaining contentions and
find them to be unavailing.
Lynch, J.P.

Clark, Mulvey and Devine, JJ.

concur.

-4-

527677

ORDERED that the judgment and order are affirmed, without
costs.

. ENTER:

Ti

Robert D. Mayberger
Clerk of the Court

NEW YORK SUPREME COURT
APPELLATE DIVISION : THIRD DEPARTMENT
In the Matter of ANDREW HENDRICKS,
NOTICE OF ENTRY

Appellant,

A.D. No. 527677

v

ANTHONY J. ANNUCCI, as Acting Commissioner
of Corrections and Community Supervision, et al.,
Respondents.

PLEASE TAKE NOTICE that the within is a true and complete copy of the
Memorandum and Order duly entered in the above- entitled matter in the Office of
the Clerk of the Supreme Court, Appellate Division, Third Department on
January 9, 2020.
Dated: January. 7 , 2020
Albany, New York
LETITIA JAMES
Attorney General of the
State of New York
Attorney for Respondents
The Capitol
Albany, New York 12224
^ '1' i

By:

//1

/; ?,/v

-

?.

MARTIN A. HOTVET
Assistant Solicitor General
Telephone (518) 776-2048
OAG No. 18-023605
TO:

Andrew Hendricks, #07-B-0269
Clinton Correctional Facility
1156 Rt. 374, P.O. Box 2001
Dannemora, New York 12929

5l

STATE OF NEW YORK
SUPREME COURT

COUNTY OF CLINTON

In the Matter of the Application of
ANDREW HENDRICKS, #©7-B-02&9,
Petitioner,
for Judgment Pursuant to Article 78
of the Civil Practice Law and Rules
-against-

DECISION, ORDER & JUDGMENT
SUFI #09-1-2©I8-02O0o11
INDEX #2018=553

ANTHONY ANNUCCI, COMMISSIONER ■
OF THE NEW YORK' STATE BOCCS,.
EARL BELL, SUPERINTENDENT
CLINTON CORRECTIONAL’ FACILITY,
Respondents.

■! -Ml ! I:'!! Hil::

DbC ID* "008503250003 Type: CIV
Recorded: 03/18/2019 at 01:50:12 PM
Fee Amt: $0.00 Page 1 of 3
Clinton, NY
,
, .
John H. Zurlo County Clerk

fu*201 8=0000055'3

This is a proceeding for judgment pursuant to Article 78 of the CPLR that was
originated by the Petition ofAndrew Hendricks, verified and supported by the Petitioner’s
Affidavit in Support of Order to Show Cause, dated on April 11, 2018 and were filed in the
Clinton County Clerk’s Office on April 18,2018. Petitioner, who is an inmate at the Clinton
Correctional Facility, challenges the disposition of an Inmate Grievance Complaint.
The Court issued a Decision and Amended Order to Show Cause on September 7,
20181. In response thereto, on December 12,2018, the Court received a Motion to Dismiss
for failure to exhaust administrative remedies, supported by an Affirmation of Christopher
J. Flemy, Esq., Assistant Attorney General, dated December 10,2018. On January 4,2019,
the Court received the Petitioner’s Motion for a Default Judgment dated December 12,
2018.2 Thereafter, on January 9,2019, the Court received the Petitioner responsive papers
to the Respondents’ Motion.

1 The Court references hereto and incorporates herein the procedural history induded in the Decision
and Amended Order to Show Cause dated September 7,2018.
2 The Court received the Respondents’ letter opposition to tie Petitioner’s motion for default on
December 24,2018 explaining that the responsive papers were filed but not timely delivered to the Petitioner.

Preliminarily, the Court will deny the Petitioner’s Motion for Default Judgment
insofar as the Respondents’ delay of one (l) business day was de minimis and accounted to
be a law office failure. See, Fleury letter, 12/10/18.
Petitioner filed an Inmate Grievance Complaint (CLA7828-17) dated November 21,
2017 on December 11,2017 alleging that he was improperly fired from his employment at
the tailor shop. The Inmate Grievance Resolution Committee (hereinafter referred to as the
“IGRC”) denied the Inmate Grievance finding that the Petitioner was fired for a specific but
confidential reason.

The Petitioner thereafter, appealed the IGRC decision to the

Superintendent who affirmed the IGRC decision on January 19,2018. On February 6,
2018, the Petitioner appealed the Superintendent’s decision to the Central Office Review
Committee (hereinafter referred to as the “CORC”).
The instant petition was filed with the Clinton County Clerl on April 18,2018 prior
to the issuance of a determination by the CORC. The petition acknowledges that the CORC
had not determined the appeal as of the date of filing; however, the Petitioner “deemed the
Respondents failure to act/respond to my Inmate Grievance Complaint to be a Constructive
denial of my Inmate Grievance Complaint.” Petition, ili2. The Petitioner argues that the
Respondents acted arbitrarily and capriciously for removing him from his employment at
the tailor shop. The Petitioner seeks to vacate and reverse the “constructive denial” of his
Inmate Grievance (CLA-7828-17), as well as, to reinstate tie Petitioner to his previous
employment in the tailor shop and award him lost wages since his removal.
Respondents argue that the Petitioner failed to exhaust his administrative remedies
prior to commencing the action. Respondent further asserts that Directive 7 NYCRR
§70i.5(d)(3)(ii) is directory as opposed to mandatory and that the caselaw indicates that

Page 2 of 3

absent demonstrable substantial prejudice, the administratrveremedies must be exhausted
prior to commencing ajudicial proceeding. See, Matter ofJones v. Fischer, no AD3d 1295;
Sheppard v. LeFevre. 116 ADad 867.
“[A] petitioner must exhaust all his [or her]
administrative remedies before seeking judicial review unless
he or she is challenging an agency's action as unconstitutional
or beyond its grant of power, or if resort to the available
remedies would be futile or would cause the petitioner
irreparable harm”. Santiago v. Boll. 130 AD3d 1336,1336.
Insofar as it is undisputed, indeed admitted, that the Petitioner failed to exhaust his
administrative remedies prior to the instant action being commenced, the Respondents'
motion to dismiss must be granted.
Based upon all of the above, it is, therefore, the decision ofthe Court and it is hereby
ORDERED, that the Petitioner’s motion for a defaultjudgment is denied; and it is
further
ORDERED, that the Respondents’ motion to dismiss is granted; and it is further
ADJUDGED, that the petition is dismissed.
D&teds

March 11, 2019 at
Lake Pleasant, New York.

f

S. Peter Feldstein
Acting Supreme Court Justice

Page 3 of 3

State of New York
Supreme Court, County of Clinton
-

Hon. S. Peter Feldstein, AJSC
In the Matter of the Application of
Amdrew Hendricks, No. ®7B©269,
Petitioner,
for a Judgment pursuant to Article 78 of the Civil
Practice Law and Rules

NOTICE OF ENTRY
Index No. 2018-0553
RJINo. 09-2018-0200.11

- against Amtisoiay Ammco, Comi®i§gi©mer of
NYS©OCC8, Earl BelSj'Smperimtadeit
Ofimtom CorrecMomaS Facility,
Respondents.

PLEASE TAKE NOTICE that the DECISION, ORDER & JUDGMENT in this
action was entered in the Office of the County Clerk of Clinton County, on March
18,2019
DATED:

Plattsburgh, New York
March 20,2019
LEITTIA JAMES
Attorney General
State of New York.
Attorney for Respondents.
43 Durkee Street, Suite 700
Plattsburgh, New York 12M)1
BY:.
leury
Assjrfant'Attomey General
of Counsel
Phone: (518) 562-3288
isti

TO: Andrew Hendricks, No. 07B0269
Clinton Correctional Facility
PO Box 2001
Dannemora, NY 12929

State of New York
preme Court, Appellate Diyi
Tkirdjiidicial Department

«-iiar
1QI0APP _.8 PM 2- 57

Decided and Entered: April 6, 2020

527677

iS-ca^os
ffofio-

In the Matter of ANDREW HENDRICKS,
Appellant,
v

DECISION AND ORDER
ON MOTION

ANTHONY J. ANNUCCI, as Acting
Commissioner of Corrections and
Community Supervision, et al.,
. Respondents.
Motion for reargument or, in the alternative, for permission to appeal to the
Court of Appeals.
Motion for permission to proceed as a poor person.
Upon the papers filed in support of the motions and the papers filed in opposition
to the motion for reargument or, in the alternative, for permission to appeal to the Court
of Appeals, it is
ORDERED that the motion for reargument or, in the alternative, for permission
to appeal to the Court of Appeals is denied, without Costs, and it is further
ORDERED that the motion for permission to proceed as a poor person is denied,
without costs, as unnecessary.
Lynch, J.P., Clark, Mulvey, Devine and Reynolds Fitzgerald, JJ., concur.
ENTER:

Robert D. Mayberger
Clerk of the Court

V

NEW YORK SUPREME COURT
APPELLATE DIVISION : THIRD DEPARTMENT
In the Matter of ANDREW HENDRICKS,
NOTICE OF ENTRY

Appellant,

A.D. No. 527677

v

.

ANTHONY J. ANNUCCI, as Acting Commissioner
of Corrections and Community Supervision, et al.,
Respondents.

PLEASE TAKE NOTICE that the within is a true and complete copy of the
Decision and Order on Motion duly entered in the above-entitled matter in the
Office of the Clerk of the Supreme Court, Appellate Division, Third Department on
April 6, 2020.
Dated:. April 7 2020
Albany, New York
LETITIA JAMES
Attorney General of the
State of New York
Attorney for Respondents
The Capitol
Albany, New York 12224
By:

'i

MARTINA HOTVET
Assistant Solicitor General
Telephone (518) 776-2048
OAG No. 18-023605
TO:

ANDREW HENDRICKS, 07-B-0269
Clinton Correctional Facility
1156 Rt. 374, P.O. Box 2001
Dannemora, New York 12929

State ofNew York
Court ofAppeals
Decided and Entered on the
tenth day of September, 2020
Present, Hon. Janet DiFiore, ChiefJudge, presiding.
Mo. No. 2020-326
In the Matter of Andrew Hendricks,
Appellant,
v.
Anthony J. Annucci, &c.,
et al.,
Respondents.

Appellant having moved for leave to appeal to the Court of Appeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED,, that the motion is denied.

John P. Asiello
Clerk of the Court

